       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684
November 19, 2010

Report Number: A-01-10-00503

Ms. Marjorie Beal
Senior Director, Hospital Billing Compliance
UMass Memorial Healthcare, Hahnemann Campus
22 Shattuck Street
Worcester, MA 01605

Dear Ms. Beal:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of UMass Memorial Medical Center Claims For
Outpatient Procedures That Included The Replacement Of Medical Devices For Calendar Years
2007 And 2008. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-10-00503 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - Ms. Marjorie Beal


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health & Human Services
           OFFICE OF

      INSPECTOR GENERAL





 REVIEW OF UMASS MEMORIAL

 MEDICAL CENTER CLAIMS FOR

OUTPATIENT PROCEDURES THAT

INCLUDED THE REPLACEMENT OF

MEDICAL DEVICES FOR CALENDAR

    YEARS 2007 AND 2008





                      Daniel R. Levinson

                       Inspector General


                        November 2010

                        A-01-10-00503

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, pays for hospital outpatient services under a prospective payment system.

Medical Device Replacement

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and neurostimulators. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. To offset these credits, Medicare reduces the payment
for the replacement of a device if (1) the device is replaced without cost to the provider, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device.

For services furnished on or after January 1, 2007, CMS established reporting requirements for a
provider that incurs no cost or that receives full credit for a replaced device. In such
circumstances, CMS requires the provider to report the modifier “FB” and to report reduced
charges on a claim that includes a procedure code for the insertion of a replacement device. For
services furnished on or after January 1, 2008, CMS also requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device.

UMass Memorial Medical Center

UMass Memorial Medical Center (the Hospital) is a 632 bed acute-care hospital located in
Worcester, Massachusetts. National Heritage Insurance Company (NHIC) processes and pays
the hospital’s claims for outpatient services. NHIC paid the Hospital a total of $2.4 million for
181 claims for outpatient procedures that included the replacement of medical devices during
calendar years 2007 and 2008.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate modifier and charges to reflect the credits received.

SUMMARY OF FINDINGS

Although the Hospital complied with Medicare requirements for obtaining credits available from
manufacturers for replaced medical devices, it did not fully comply with requirements for
reporting the appropriate modifier and charges to reflect the credits received. For 31 of 32

                                                 i
sampled claims for calendar years 2007 and 2008, there were no available credits or the credits
were partial credits received from the manufacturer that did not represent at least 50 percent of
the cost of the replacement device and therefore were not reportable. For the one remaining
sampled claim, a credit was available from the manufacturer and reportable. For this claim, the
Hospital obtained full credit but did not report the “FB” modifier on the claim to alert NHIC that
a payment adjustment was needed.

Our limited review of the 149 remaining claims for the audit period found that the Hospital had
received full credits for the replaced devices on 2 claims. However, the Hospital did not report
the “FB” modifier or reduced charges on these claims to alert NHIC that payment adjustments
were needed.

As a result, for the 3 claims the Hospital was overpaid $33,762. Moreover, for these claims,
beneficiaries incurred $1,440 in additional copayment costs. These overpayments and additional
copayment costs occurred because the Hospital did not have controls to report the appropriate
modifiers and charges to reflect credits received from manufacturers.

RECOMMENDATIONS

We recommend that the Hospital:

   •	 adjust and resubmit to NHIC the 3 erroneous claims to correct overpayments totaling
      $33,762 and overstated copayment costs totaling $1,440; and

   •	 establish procedures to report to NHIC the credits obtained for replaced devices in
      accordance with Medicare requirements.

UMASS MEMORIAL MEDICAL CENTER COMMENTS

In comments on our draft report, UMass Memorial Medical Center agreed with our findings and
recommendations. UMass Memorial Medical Center’s comments are included in their entirety
in the appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Hospital Outpatient Prospective Payment System .......................................1
              Credits for Replaced Medical Devices ........................................................1
              Reimbursement for Medical Device Replacement ......................................1
              UMass Memorial Medical Center ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          MEDICARE REQUIREMENTS .............................................................................4
               Coding Requirements for Medical Device Credits .....................................4

          NONCOMPLIANCE WITH MEDICARE REQUIREMENTS ..............................5
              Hospital Did Not Report That It Received Credits ......................................5

          MEDICARE OVERPAYMENTS ....................................................................…...5

          RECOMMENDATIONS .........................................................................................6

          UMASS MEMORIAL MEDICAL CENTER COMMENTS..................................6

APPENDIX

          UMASS MEMORIAL MEDICAL CENTER COMMENTS




                                                                    iii
                                             INTRODUCTION


BACKGROUND


The Medicare program, established by Title XVIII of the Social Security Act (the Act), provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. Part B of Title XVIII provides supplementary medical insurance for medical
and other health services, including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospital outpatient departments. 1

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the Medicare,
Medicaid, and SCHIP Balanced Budget Refinement Act of 1999, P.L. No. 106-113, CMS
implemented an outpatient prospective payment system (OPPS) for hospital outpatient services.
The OPPS was effective for services furnished on or after August 1, 2000. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the ambulatory payment classification (APC) group to which the service is assigned. CMS uses
Healthcare Common Procedure Coding System codes and descriptors to identify and group the
services within each APC group. All services and items within an APC group are comparable
clinically and require comparable resources. Under the OPPS, outlier payments are available
when exceptionally costly services exceed established thresholds.

Credits for Replaced Medical Devices

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and neurostimulators. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. Warranties vary among manufacturers and product lines
but commonly cover replaced devices on a pro rata basis depending on the age of the device.
Providers generally must send replaced devices back to the manufacturers within a specified time
after the replacement procedures to obtain credits.

Reimbursement for Medical Device Replacement

To offset the credits that a provider receives for costly devices replaced during outpatient
procedures, Medicare generally requires payment adjustments. Specifically, for 31 types of

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries to Medicare administrative contractors (MAC)
between October 2005 and October 2011. Most, but not all, of the MACs are fully operational. For jurisdictions
where the MACs are not fully operational, fiscal intermediaries continue to process Part B outpatient claims. For
purposes of this report, the term “Medicare contractor” means the fiscal intermediary or MAC, whichever is
applicable.


                                                        1

devices that fall within 21 APCs, Medicare reduces the payment for the replacement of the
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of the replaced device, or (3) the provider receives partial credit equal to or
greater than 50 percent of the cost of the replacement device.

For services furnished on or after January 1, 2007, CMS established reporting requirements for a
provider that incurs no cost or that receives full credit for a replaced device. In such
circumstances, CMS requires the provider to report the modifier “FB” and to report reduced
charges on a claim that includes a procedure code for the insertion of a replacement device. 2 For
services furnished on or after January 1, 2008, CMS also requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Providers must use these modifiers as required to ensure that Medicare
makes the appropriate payment adjustments.

In the preamble to the regulation implementing the billing requirements for device replacement
credits (71 Fed. Reg. 68072 (Nov. 24, 2006)), CMS stated that payment adjustments were
consistent with section 1862(a)(2) of the Act, which excludes from Medicare coverage an item or
service that neither the beneficiary nor anyone on his or her behalf has an obligation to pay.
According to CMS, payment of the full APC payment rate when a device was replaced under
warranty or when there was a full credit for the price of the replaced device effectively results in
Medicare payment for a noncovered item.

UMass Memorial Medical Center

UMass Memorial Medical Center (the Hospital) is a 632 bed acute-care hospital located in
Worcester, Massachusetts. As the Medicare contractor for hospitals in Massachusetts, National
Heritage Insurance Company (NHIC) processes and pays the Hospital’s claims for Medicare
outpatient services. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate modifier and charges to reflect the credits received.

Scope

Our audit covered $2.4 million in Medicare payments to the Hospital for 181 claims for
outpatient procedures that included the replacement of any of the 31 specified types of medical

2
 The provider’s failure to report reduced charges on a claim with the “FB” modifier could result in excessive or
unwarranted outlier payments.
3
    NHIC became a MAC on May 18, 2009.


                                                         2

devices. The 181 claims had dates of service during calendar years (CY) 2007 and 2008. During
this period, the Hospital did not submit any outpatient claims with “FB” or “FC” modifiers. 4

We limited our internal control review to the Hospital’s controls related to (1) preparing and
submitting Medicare claims for procedures that included the replacement of medical devices and
(2) identifying and obtaining credits and reporting that manufacturers provided credits for
medical devices that were either covered under warranty or recalled.

We conducted our fieldwork at the Hospital in Worcester, Massachusetts, and at three medical
device manufacturers in St. Paul, Minnesota, from February through June 2010. We also
contacted NHIC.

Methodology

To accomplish our objective, we:

       •	 reviewed applicable Federal laws, regulations, and guidance;

       •	 extracted the Hospital’s outpatient paid claim data from CMS’s National Claims History
          file for CYs 2007 and 2008;

       •	 developed a computer application to identify outpatient claims that included procedures
          for the replacement of any of the 31 specified types of medical devices and identified 181
          claims;

       •	 selected a judgmental sample of 32 of the 181 claims and reviewed the beneficiaries’
          medical records, accounts payable invoices, and manufacturers’ warranties to determine
          whether the Hospital should have submitted the claims with the applicable modifier and
          reduced charges;

       •	 reviewed the Hospital’s procedures for identifying and obtaining credits and reporting on
          its Medicare claims that the manufacturers provided credits for replaced devices;

       •	 interviewed officials from selected device manufacturers that conducted business with the
          Hospital to identify their requirements for issuing credits and obtained lists of credits
          issued to the Hospital to determine whether Medicare payment adjustments were needed;

       •	 requested information from the Hospital on the 149 remaining claims in the population
          and performed a limited review to identify those claims for which the Hospital received
          reportable credits from the device manufacturers;

       •	 calculated the correct payments for those claims for which payment adjustments were
          needed; and


4
    CMS did not require providers to report the “FC” modifier on claims until January 1, 2008.


                                                           3

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Although the Hospital complied with Medicare requirements for obtaining credits available from
manufacturers for replaced medical devices, it did not fully comply with requirements for
reporting the appropriate modifier and charges to reflect the credits received. For 31 of 32
sampled claims for calendar years 2007 and 2008, there were no available credits or the credits
were partial credits received from the manufacturer that did not represent at least 50 percent of
the cost of the replacement device and therefore were not reportable. For the one remaining
sampled claim, a credit was available from the manufacturer and reportable because the Hospital
obtained full credit but did not report the “FB” modifier on the claim to alert NHIC that a
payment adjustment was needed.

Our limited review of the 149 remaining claims for the audit period found that the Hospital had
received full credits for the replaced devices on 2 claims. However, the Hospital did not report
the “FB” modifier or reduced charges on these claims to alert NHIC that payment adjustments
were needed.

As a result, for the 3 claims that we identified the Hospital was overpaid $33,762. Moreover, for
these claims, beneficiaries incurred $1,440 in additional copayment costs. These overpayments
and additional copayment costs occurred because the Hospital did not have controls to report the
appropriate modifiers and charges to reflect credits received from manufacturers.

MEDICARE REQUIREMENTS

Coding Requirements for Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and in its Medicare Claims
Processing Manual (the Manual) explains how a provider should report no-cost and reduced-cost
devices under the OPPS. For services furnished on or after January 1, 2007, CMS requires the
provider to report the modifier “FB” and reduced charges on a claim that includes a procedure
code for the insertion of a replacement device if the provider incurs no cost or receives full credit
for the replaced device. If the provider receives a replacement device without cost from the


                                                   4

manufacturer, the provider must report a charge of no more than $1 for the device (the Manual,
chapter 4, § 61.3.1). If the provider receives full credit from the manufacturer for a replaced
device that is less expensive than the replacement device, the provider must report a charge that
represents the difference between its usual charge for the device being implanted and its usual
charge for the device for which it received credit (the Manual, chapter 4, § 61.3.2).

For services furnished on or after January 1, 2008, CMS requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Partial credits for less than 50 percent of the cost of a replacement
device need not be reported with any modifier.

NONCOMPLIANCE WITH MEDICARE REQUIREMENTS

Hospital Did Not Report That It Received Credits

For 1 of the 32 claims that we reviewed, the Hospital received full credit for a replaced device
but did not report the “FB” modifier on its claim (although the Hospital did report reduced
device charges). According to the beneficiary’s medical records, the manufacturer recalled the
device just over 6 months after its insertion. Under the terms of the recall, the manufacturer
provided full credit for the cost of the replaced device. Therefore, this claim should have been
submitted with the “FB” modifier to alert NHIC that a payment reduction was needed.

Our limited review of information provided to us by the medical device manufacturers found that
the Hospital had received full credits for replaced devices for 2 of the remaining 149 claims but
had not reported the credits in accordance with Medicare requirements. These claims should
have been submitted with the “FB” modifier and reduced charges to alert NHIC that a payment
reduction was needed.

Overpayments of $33,762 for the three claims occurred because the Hospital did not have
controls for reporting medical device credits received from manufacturers. Specifically, the
Hospital did not have procedures for coordinating functions among the various departments (i.e.,
accounts payable, patient accounts, and Medicare billing) to ensure that it submitted claims with
the appropriate modifier and reduced charges to initiate reduced payments for credits received
from manufacturers.

MEDICARE OVERPAYMENTS

For the three claims that we identified, the Hospital was overpaid $33,762. Moreover, for these
claims, beneficiaries incurred $1,440 in additional copayment costs.




                                                5

RECOMMENDATIONS

We recommend that the Hospital:

   •	 adjust and resubmit to NHIC the 3 erroneous claims to correct overpayments totaling
      $33,762 and overstated copayment costs totaling $1,440; and

   •	 establish procedures to report to NHIC the credits obtained for replaced devices in
      accordance with Medicare requirements.


UMASS MEMORIAL MEDICAL CENTER COMMENTS

In comments on our draft report, UMass Memorial Medical Center agreed with our findings and
recommendations. UMass Memorial Medical Center’s comments are included in their entirety
in the appendix.




                                               6

APPENDIX

APPENDIX: UMASS MEMORIAL MEDICAL CENTER COMMENTS Page 1 of 2


 'I•     UMassMemorial                              Compliance Office         22 Shattuck Street
                                                                              Worcester, MA 01605
                                                                              www.umassmemorial.org




     November 09,2010

     Mr. Michael Armstrong
     Regional Inspector General for Audit Services,
     Office of the Inspector General, Audit Services, Region 1
     John F. Kennedy Federal Building, Room 2425
     Boston, MA 02203

     Re: 	   Draft Report Number A-01-1O-00503 titled Review of UMass Memorial Medical
             Center Claims for Outpatient Procedures That Included the Replacement of
             Medical Devices for Calendar Years 2007 and 2008.


     Dear Mr. Armstrong,

     In accordance with your letter dated October 14, 2010, I am responding to your request
     for written comments related to the validity of facts contained in the draft report, the
     reasonableness of the recommendations offered by the Office of the Inspector General
     and the nature of corrective actions taken or planned.

     Overall, we are in agreement with the information contained in this draft report.
     Specifically, we are pleased that the OIG auditors recognized the fact that UMass
     Memorial Medical Center generally complied with requirements for obtaining credits
     available from manufacturers.

     In response to the specific recommendations contained in the OIG's draft report, we offer
     the following response.

        • 	 "Adjust and resubmit to NHIC the 3 erroneous claims to correct overpayments 

            totaling $33,762 and overstated co-payment costs totaling $1,440." 


             -   We agree with the auditor's findings related to the above claims and have
                 adjusted these claims in the Medicare Fiscal Intermediary Shared System
                 (PISS). In all three instances, co-payments were paid by secondary insurance
                 and adjustments will be submitted to those insurers when the Medicare
                 adjusted payments have been processed.

        • 	 "Establish procedures to report to NHIC the credits obtained for replacement 

            devices in accordance with Medicare requirements." 



                                                                              The Clinical Partner of the
                                                                              University of Massachusetts Medical School
                                                                    Page 2 of2




       -   Education regarding Medicare replacement device billing requirements has been
           provided. Policies and procedures have been developed to ensure appropriate
           coding and billing to Medicare when credits for replacement devices have been
           received.

Additionally, UMass Memorial Medical Center will perform a retrospective review of
Medicare claims involving credits for devices replaced under warranty for the time period
January 1, 2007 to present. Claim adjustments will be submitted to NIDC and secondary
payors (including Medicare beneficiaries) for claims where modifier FB or FC had not
been reported.

Please feel free to contact me at 508-334-5593 if you have any questions.


Sificerely,




Marjorie A. Beal
Senior Director, Hospital Billing Compliance
UMass Memorial Health Care
508-334-5593




C: 	       John Randolph
           Todd Keating
           John Salzberg
